APPEA/D1CES

FILED: March 24, 2020
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 19-7384
(7T8-CV-00383-JPJ-PMS)

DARREN M. ROWE
Petitioner - Appellant
v.
HAROLD W. CLARKE
Respondent - Appellee

JUDGMENT
In accordance with the decision of this court, a certificate of appealability is
denied and the appeal is dismissed.
This judgment shall take effect upon issuance of this court's mandate in
accordance with Fed. R. App. P. 41.
/s/PATRICIA S. CONNOR, CLERK

/IPffWDix; A

UNPUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 19-7384
DARREN M. ROWE,
Petitioner - Appellant,
v.
HAROLD W. CLARKE,
Respondent - Appellee.

Appeal from the United States District Court for the Western District of Virginia, at
Roanoke. James P. Jones, District Judge. (7:18-cv-00383-JPJ-PMS)
Submitted: February 27, 2020
Before WILKINSON, FLOYD, and RUSHING, Circuit Judges.
Dismissed by unpublished per curiam opinion.
Darren M. Rowe, Appellant Pro Se.
Unpublished opinions are not binding precedent in this circuit.

Decided: March 24, 2020

PER CURIAM:
Darren M. Rowe seeks to appeal the district court’s order dismissing as untimely
his 28 U.S.C. § 2254 (2018) petition. See Gonzalez v. Thaler, 565 U.S. 134, 148 & n.9
(2012) (explaining that § 2254 petitions are subject to one-year statute of limitations,
running from latest of four commencement dates enumerated in 28 U.S.C. § 2244(d)(1)
(2018)). The order is not appealable unless a circuit justice or judge issues a certificate of
appealability. 28 U.S.C. § 2253(c)(1)(A) (2018). A certificate of appealability will not
issue absent “a substantial showing of the denial of a constitutional right.” 28 U.S.C.
§ 2253(c)(2) (2018). When, as here, the district court denies relief on procedural grounds,
the prisoner must demonstrate both that the dispositive procedural ruling is debatable and
that the petition states a debatable claim of the denial of a constitutional right. Gonzalez,
565 U.S. at 140-41 (citing Slack v. McDaniel, 529 U.S. 473, 484 (2000)).
We have independently reviewed the record and conclude that Rowe has not made
the requisite showing. Accordingly, we deny a certificate of appealability, deny leave to
proceed in forma pauperis, and dismiss the appeal. We dispense with oral argument
because the facts and legal contentions are adequately presented in the materials before this
court and argument would not aid the decisional process.
DISMISSED

2

IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF VIRGINIA
ROANOKE DIVISION
DARREN M. ROWE,

)
)

Petitioner,

)

Case No. 7:18CV00383

)

v.

)

FINAL ORDER

)

HAROLD W. CLARKE,

)
)

Respondent.

By: James P. Jones
United States District Judge

)

For the reasons set forth in the Opinion accompanying this Final Order, it is
ORDERED that the respondent’s Motion to Dismiss is GRANTED; the Petition
for a Writ of Habeas Corpus under 28 U.S.C. § 2254 is DISMISSED; a Certificate
of Appealability is DENIED, based upon the court’s finding that the defendant has
not made the requisite showing of denial of a substantial right; and the clerk shall
close the case.
ENTER: September 6, 2019
/s/ James P. Jones
United States District Judge

appendix:

g

IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF VIRGINIA
ROANOKE DIVISION
DARREN M. ROWE,

)
)

)

Petitioner,

Case No. 7:18CV00383

)

v.

OPINION

)
)

HAROLD W. CLARKE,

)
)

Respondent.

By: James P. Jones
United States District Judge

)

Darren M. Rowe, Pro Se Petitioner; Virginia B. Theisen, Assistant Attorney
General, Office of the Attorney General, Richmond, Virginia, for Respondent.
In this Petition for a Writ of Habeas Corpus under 28 U.S.C. § 2254, a
Virginia inmate proceeding pro se, contends that his confinement pursuant to a
2014 Judgment entered by a state court is unconstitutional. Upon review of the
record, I conclude that the respondent’s Motion to Dismiss must be granted,
because the petition was untimely filed.
I.
From 2010 through 2013, Rowe was in an on-again, off-again relationship
with Amanda Fitzgerald of Louisa County, Virginia.

Fitzgerald had previously

been in an on-again, off-again relationship with O’Brien Johnson for ten years,

This summary of facts about events is taken from the transcripts of the guilty
plea and sentencing hearings conducted by the Louisa County Circuit Court in 2014, and
the presentence report. The facts are undisputed unless otherwise noted.

which continued while she was seeing Rowe. Rowe testified that Johnson had
made threats against him.
On the evening of February 21, 2013, Rowe and his four-year-old daughter,
DR, fell asleep at Fitzgerald’s apartment while watching a movie. Around 11:00
p.m., all three of them were awakened by someone hitting the window of the
apartment and shouting for Rowe to come outside. DR, who was closest to the
window, began crying. Rowe and Fitzgerald saw Johnson run up on the hood of
Rowe’s car, stomp on its roof, and then drive away.2

Rowe ran out of the

apartment and got in his car, where he kept a .45 caliber firearm. He put the gun in
his front pocket and drove off, intending to go to Johnson’s mother’s house to
vandalize Johnson’s car.
On the way, Rowe saw Johnson sitting in his car, parked at the Louisa MiniMart. Rowe pulled in beside Johnson’s car, jumped out of his vehicle, ran over,
and kicked Johnson’s car. Johnson got out and started shouting as he came around
the car toward Rowe. Rowe claims that as Johnson came at him, he seemed to be
reaching toward his pocket for something— possibly a weapon. Rowe then pulled
his firearm from his jacket pocket and pointed it at Johnson to stop him from
charging. Johnson did stop for a moment and then charged at Rowe, shouting,
shoot me, n*****, shoot me, n*****. Rowe shot Johnson, and Johnson fell to the
2

At the preliminary hearing, Johnson denied that he vandalized Rowe’s car or
visited Fitzgerald’s apartment on February 21,2013.
-2-

ground. Rowe claims that less than five minutes passed between Johnson’s actions
at Fitzgerald’s apartment and the shooting.
Johnson told police that he was at the mini-mart, parked in his car, talking to
some friends on February 21, 2013, when Rowe unexpectedly arrived and
confronted him. According to Johnson, the two men exchanged words, and then
Rowe pulled out a firearm. Johnson asked, what are you going to do, shoot me?
Rowe did, and Johnson fell, no longer able to feel or move his legs.
After shooting Johnson, Rowe panicked and drove away. At some point, he
went back to Fitzgerald’s house, picked up his daughter, and disposed of the
firearm. Police arrested Rowe the next morning at his mother’s house.
Rescue workers assisting Johnson found a single bullet wound on his left
side, just under the armpit. Transported to the University of Virginia hospital*
Johnson underwent emergency surgery.

The surgeons removed the bullet, his

spleen, and part of his large intestine. Because the bullet passed close to Johnson’s
spine, they believed he would possibly be paralyzed.
On February 26, 2014, Rowe entered a guilty plea in the Circuit Court for
Louisa County, pursuant to a written Plea Agreement, to charges of aggravated
malicious wounding and use of a firearm in the commission of that felony. The
latter offense carried a mandatory minimum three-year sentence. As to the former
offense, the Plea Agreement provided for a maximum sentence of 50 years and an
-3-

active term of incarceration of no more than 20 years in prison. Without the Plea
Agreement, if convicted after a trial, the minimum total sentence the jury could
have imposed on Rowe was 23 years.
On July 2, 2014, the trial court conducted a lengthy sentencing hearing.
Johnson, in a wheelchair, testified that he had not been able to walk since the
shooting. Fitzgerald and Rowe testified about seeing Johnson damage Rowe’s car.
Rowe’s former employers, his uncle, his mother and her fiance, and his
grandmother testified as character witnesses for Rowe.

They described an

intelligent, hard-working employee, a gentle and loving father, who had never
' displayed a tendency for violence and had no criminal history.

All of them

testified that the shooting was shocking to them, because it was so out of character
for Rowe, as they had known him.
The trial judge told Rowe that he would have imposed the 20-year active
prison sentence permitted by the Plea Agreement if not for Rowe’s good behavior
before the crime. The judge stated that there was no viable argument for selfdefense or legal provocation, but that substantial mitigating evidence existed for
sentencing.

The trial court sentenced Rowe to 40 years in prison for the

aggravated malicious wounding conviction, with 30 years suspended* and to three
years in prison for the firearm offense. The court entered its final order on August
28, 2014. Rowe did not appeal.
-4-

In April 2016, Rowe filed a Petition for a Writ of Habeas Corpus in the
Circuit Court for Louisa County.

Rowe alleged that trial counsel provided

ineffective assistance during the pretrial investigation, plea bargaining, and
sentencing phases of the proceedings and thereafter, by failing to consult with him
about an appeal. The circuit court denied the habeas petition, and Rowe appealed.
The Supreme Court of Virginia denied his habeas appeal in November of 2017,
and the Supreme Court of the United States denied certiorari in May of 2018.
On August 1, 2018, Rowe executed this habeas petition under § 2254,
alleging that counsel provided ineffective assistance by (A) failing to investigate,
and interview critical witnesses before the guilty plea; (B) failing to advise Rowe
of the possibility of a heat of passion defense; (C) causing Rowe’s guilty plea to be
unknowing, involuntary, and unintelligent; (D) failing to timely object to certain
statements of the prosecutor at sentencing; and (E) failing to consult with Rowe
regarding an appeal. The respondent has moved to dismiss Rowe’s § 2254 claims
as untimely filed, or in the alternative, procedurally defaulted, or without merit.
Rowe has responded, making the matter ripe for disposition.
II.
The one-year period of limitation for filing a habeas petition under § 2254
begins to run on the latest of four dates:

-5-

(A)

the date on which the judgment became final by the conclusion
of direct review or the expiration of the time for seeking such
review;

(B)

the date on which the impediment to filing an application
created by State action in violation of the Constitution or laws
of the United States is removed, if the applicant was prevented
from filing by such State action;

(C)

the date on which the constitutional right asserted was initially
recognized by the Supreme Court, if the right has been newly
recognized by the Supreme Court and made retroactively
applicable to cases on collateral review; or

(D)

the date on which the factual predicate of the claim or claims
presented could have been discovered through the exercise of
due diligence.

28 U.S.C. § 2244(d)(1).
I conclude that Rowe’s petition was untimely filed under § 2244(d)(1)(A).
After the circuit court entered judgment on August 28, 2014, Rowe had 30 days to
note an appeal. Va. Sup. Ct. R. 5A:6 (notice of appeal must be filed within 30
days of entry of final judgment). When he failed to do so by Monday, September
29, 2014, his convictions became final, and his federal habeas time clock under
§ 2244(d)(1)(A) began to run.

See Gonzales v. Thaler, 565 U.S. 134, 149-50

(2012) (holding that when state prisoner does not seek appellate review, judgment
becomes final when time for seeking direct review expires); Va. Code Ann. § 1210(C) (extending time to file action to next court business day when filing period
ends on weekend or holiday). Rowe’s one-year federal filing period expired on
-6-

September 29, 2015.

Thus, Rowe’s § 2254 petition, executed years later on

August 1, 2018, must be dismissed as untimely under § 2244(d)(1)(A), unless he
demonstrates a factual basis on which to invoke another provision of § 2244(d)(1),
or to warrant equitable tolling.3
Rowe argues that his federal filing period should be calculated under
§ 2244(d)(1)(B). To invoke this section, Rowe must demonstrate a state-created
impediment that violated constitutional or federal laws, that also prevented him
from timely filing his § 2254 petition. Id.
Rowe contends that the state impeded the timely filing of his § 2254 petition
by (a) failing to appoint counsel to assist him in pursuing habeas corpus relief; and
(b) omitting from the state habeas statute, Va. Code Ann. § 8.01-654, any notice of
the federal filing period. Rowe alleges that he was untrained in legal matters and
had no knowledge of federal law, including the time limit for filing a § 2254
petition. With no court appointed attorney for post-conviction proceedings, Rowe
read and relied on the Virginia habeas time limit, which requires a state petition to
“be filed within two years from the date of final judgment in the trial court,” if no
direct appeal was filed.

Va. Code Ann. § 8.01-654(A)(2).

3

By chance, while

The federal filing period is tolled, or paused, during the pendency of a properly
filed application for state post-conviction or other collateral review. See 28 U.S.C.
§ 2244(d)(2). Rowe did not file his state habeas petition until April 2016, eight months
after his federal filing period expired. Thus, the pendency of his state petition did not toll
the running of the federal time clock.
-7-

Rowe’s state habeas appeal was pending in the Supreme Court of Virginia, another
inmate mentioned the option to file a federal habeas petition under § 2254. Rowe
then discovered the federal filing periods in 28 U.S.C. § 2244 — too late to file a
timely § 2254 petition.
I cannot find that failure to appoint habeas counsel for Rowe constituted an
impediment under § 2244(d)(1)(B).

Rowe claims that the Supreme Court’s

decision in Martinez v. Ryan, 566 U.S. 1 (2012), required states to provide counsel
for an inmate’s initial state habeas corpus proceeding. He is mistaken.4 On the
contrary, it is well established that “in the postconviction context[,] prisoners have
no constitutional right to counsel.” Lawrence v. Florida, 549 U.S. 327, 336-37,
(2007).

Thus, the state court’s failure to appoint an attorney for Rowe’s state

habeas proceedings was not unconstitutional or in violation of federal law and
cannot qualify as an impediment under § 2244(d)(1)(B).
Similarly, I find no respect in which Virginia’s habeas statute, § 8.01654(A)(2), can qualify as an impediment under § 2244(d)(1)(B). The state statute

4 Rather, Martinez held that a procedural default during state court proceedings
“will not bar a federal habeas court from hearing a substantial claim of ineffective
assistance at trial if, in the initial-review collateral proceeding, there was no counsel or
counsel in that proceeding was ineffective.” 132 S. Ct. at 1320. See also Arthur v.
Thomas, 739 F.3d 611, 630 (11th Cir. 2014) (“[T]he Martinez rule explicitly relates to
excusing a procedural default of ineffective-trial-counsel claims and does not apply to
[the] statute of limitations [in .§ 2244(d)] or the tolling of that period.”); Meredith v.
Clarke, No. 7:15CV00502, 2015 WL 7783594, at *3 (W.D. Va. Dec. 3, 2015) (finding
that Martinez created no basis for tolling of federal habeas filing period).
-8-

is not rendered unconstitutional merely because it does not mention federal habeas
options and time limits. See, e.g., Ferguson v. Palmateer, 321 F.3d 820, 823 (9th
Cir. 2003) (holding that federal statute of limitations is not extended where a state
statute provides longer limitations period for state habeas petitions). Furthermore,
Rowe fails to demonstrate that either the state statute or the lack of counsel
prevented him from researching federal habeas law earlier and filing a timely
federal petition.

Accordingly, I cannot find that Rowe has demonstrated any

impediment that entitles him to the federal filing period under § 2244(d)(1)(B).
Rowe also argues for equitable tolling. Equitable tolling occurs only if a
petitioner shows “(1) that he has been pursuing his rights diligently, and (2) that
some extraordinary circumstance stood in his way and prevented timely filing.”
Holland v. Florida, 560 U.S. 631, 649 (2010).5 It is well established that a habeas
petitioner’s lack of legal education or knowledge are neither extraordinary nor
external to a party’s control, as required to trigger equitable tolling. United States
v. Sosa, 364 F.3d 507, 512 (4th Cir. 2004) (collecting cases holding that pro se
petitioner’s “ignorance of the law is not a basis for equitable tolling”). Thus, I find
no ground for equitable tolling based on Rowe’s lack of habeas counsel or his own
limited understanding of legal matters.

5 I have omitted citations, internal quotation marks, or alterations here and
elsewhere in this Opinion, unless otherwise noted.
-9-

Rowe also argues that I should reach the merits of his untimely § 2254
claims under the actual innocence exception recognized in McQuiggin v. Perkins,
569 U.S. 383, 386 (2013) (holding that defendant who demonstrates actual
innocence of his crime of conviction may, in extraordinary circumstances, proceed
with a habeas petition that is otherwise statutorily time-barred under § 2244(d)(1));
see also Teleguz v. Zook, 806 F.3d 803, 807 (4th Cir. 2015) (“a compelling
showing of actual innocence enables a federal court to consider the merits of a
petitioner’s otherwise defaulted claims”). The actual innocence gateway is a rare
phenomenon: “[A] petitioner does not meet the threshold requirement unless he
persuades the district court that, in light of the new evidence, no juror, acting
reasonably, would have voted to find him guilty beyond a reasonable doubt.”
Schlup v. Delo, 513 U.S. 298, 329 (1995). This new “evidence must establish
sufficient doubt about [a petitioner’s] guilt to justify the conclusion that his
[incarceration] would be a miscarriage of justice unless his conviction was the
product of a fair trial.” Id. at 316.
Rowe argues that if evidence not presented at trial were considered, no
reasonable juror could deny from the totality of the evidence that he acted in the
heat of passion, rather than with the malice required for a conviction of aggravated
malicious wounding. Thus, Rowe contends that he would have been convicted of

-10-

the lesser-included crime of unlawful wounding, which carries a much lighter
sentence.
The evidence on which Rowe rests his actual innocence argument includes
testimony about: Rowe’s normal, calm demeanor, lack of a criminal record, and
close relationship with his daughter; Rowe’s good work ethic; Johnson having
made prior threats against Rowe; Johnson shouting and frightening Rowe’s
daughter and vandalizing Rowe’s car less than five minutes before the shooting;6
Rowe’s testimony about how Johnson charged at him while screaming, shoot me
;• and testimony from two eyewitnesses who told investigators that they had
overheard these comments from Johnson. Rowe admits that this evidence was
available to him during the criminal proceedings. He contends that it is new in the
actual innocence context, because it was not presented at the trial phase due to
counsel’s alleged ineffectiveness in advising against presenting a heat of passion
defense at trial and in recommending the Plea Agreement instead. Rowe asserts
that this unpresented evidence makes such a strong showing of his actual
innocence of malicious wounding that it should qualify him for equitable tolling
under Schlup. I cannot agree.

6 Rowe asserts that he was “filled with hot blood” from Johnson’s waking him up,
scaring his daughter and making her cry, and damaging his car, to the point that Rowe
became “a human ‘time-bomb.’” Mem. Supp. Pet. 23, ECF No. 1-1.
-11-

“Without any new evidence of innocence, even the existence of a
concededly meritorious constitutional violation is not in itself sufficient to
establish a miscarriage of justice that would allow a habeas court to reach the
merits of a barred claim.” Schlup, 513 U.S. at 316 (emphasis added).
To be credible, [a miscarriage of justice] claim requires petitioner to
support his allegations of constitutional error with new reliable
evidence — whether it be exculpatory scientific evidence, trustworthy
eyewitness accounts, or critical physical evidence — that was not
presented at trial.
Id. at 324 (emphasis added). See also Amrine v. Bowersox, 238 F.3d 1023, 1028
(8th Cir. 2001) (holding that “evidence is new only if it was not available at trial
and could not have been discovered earlier through the exercise of due diligence”);
Hubbard v. Pinchak, 378 F.3d 333, 341 (3d Cir. 2004) (“A defendant’s own lateproffered testimony is not ‘new’ because it was available at trial. Hubbard merely
chose not to present it to the jury. That choice does not open the gateway.”);
Hancock v. Davis, 906 F.3d 387, 390 (5th Cir. 2018), cert, denied, No. 18-940,
2019 WL 266857 (U.S. June 17, 2019) (“Evidence does not qualify as ‘new’ under
the Schlup actual-innocence standard if ‘it was always within the reach of
[petitioner’s] personal knowledge or reasonable investigation.’” ); but see Stedman
v. Corcoran, No. GLR-15-230, 2019 WL 1778634, at *5 n.4 (D. Md. Apr. 23,
2019) (noting that “a circuit split exists regarding whether ‘new evidence’ means

-12-

‘newly discovered’ or ‘newly presented’” and the United States Court of Appeals
for the Fourth Circuit has not addressed the issue).
Even if I could consider Rowe’s unpresented evidence in support of his
actual innocence argument, I cannot find that it meets the required standard under
Schlup. Rowe was convicted of aggravated malicious wounding, a violation of Va.
Code Ann. § 18.2-51.2(A). This section provides;
If any person maliciously shoots, stabs, cuts or wounds any
other person, or by any means causes bodily injury, with the intent to
maim, disfigure, disable or kill, he shall be guilty of a Class 2 felony
if the victim is thereby severely injured and is caused to suffer
permanent and significant physical impairment.
Va. Code Ann. § 18.2-51.2(A).

“The element of malicious wounding that

distinguishes it from unlawful wounding is malice, expressed or implied, and.
malice, in its legal acceptation, means any wrongful act done willfully or
purposefully.” Witherow v. Commonwealth, 779 S.E.2d 223, 228 (Va. Ct. App.
2015).

“Malice is evidenced either when the accused acted with a sedate,

deliberate mind, and formed design, or committed a purposeful and cruel act
without any or without great provocation.” Id.
On the other hand, “[deliberate and purposeful acts may nonetheless be
done without malice if they are done in the heat of passion.” Id. In fact,
[mjalice and heat of passion are mutually exclusive; malice excludes
passion, and passion presupposes the absence of malice. Heat of
passion is determined by the nature and degree of the provocation and
may be found upon rage, fear, or a combination of both. Heat of
-13-

passion excludes malice when provocation reasonably produces fear
that causes one to act on impulse without conscious reflection.
Id. “[I]t is settled law [in Virginia] that slight provocation does not suffice” to
support a heat of passion defense. Taylor v. Commonwealth, No. 1673-89-2, 1992
WL 441839, at *6 (Va. Ct. App. Sept. 29, 1992). “Words alone, however insulting
or contemptuous, are never a sufficient provocation to have that effect, at least
where a deadly weapon is used.” Id.
Even if the unpresented evidence from Rowe’s petition and the sentencing
. hearing was now presented to a jury, it does not sufficiently support a heat of
passion defense to open the actual innocence gateway recognized in McQuiggin
and Schlup.

Johnson’s words and vandalism at Fitzgerald’s house may have

pushed Rowe into a rage. After Johnson left, however, Rowe made a conscious
decision to go wreak revenge against Johnson’s car, armed himself, and went
searching for that car.

When he found it, he provoked a confrontation with

Johnson by kicking the man’s car window. When Johnson shouted threats and
charged around his car toward Rowe, Rowe made a conscious decision to display
the firearm to scare Johnson into stopping.

Williams v. Commonwealth, 767

S.E.2d 252, 259 (Va. Ct. App. 2015) (holding that defendant’s testimony that he
deliberately aimed gun with purpose of scaring victim reflects that his act of
shooting was done “with a sedate, deliberate mind, and formed design,” rather than
“on impulse without conscious reflection”); Graham v. Commonwealth, 525
-14-

S.E.2d 567, 571 (Va. Ct. App. 2000) (finding “the evidence insufficient as a matter
of law to justify a heat of passion instruction” where defendant testified that he
“consciously abandoned his escape, armed himself, and started shooting,” and thus
“acted upon reflection and deliberation” rather than “on sudden provocation or
from passion”).
Given this background, I cannot find that Johnson’s offensive words, his
continued charge, and even his reaching back for a possible weapon that Rowe
never saw sufficiently support a heat of passion defense to reduce Rowe’s offense
to unlawful wounding. Rather, I am satisfied that from the totality of the evidence

5 •

reasonable jurors could find him guilty of aggravated malicious wounding.
Accordingly, I conclude that he has not met the miscarriage of justice exception or
otherwise excused his untimely filing of this § 2254 petition under § 2244(d)(1).
Therefore, I will grant the Motion to Dismiss.
A separate Final Order will be entered herewith.
DATED: September 6, 2019
/s/ James P. Jones
United States District Judge

-15-

FILED: May 26, 2020
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 19-7384
(7:18-cv-003 83-JPJ-PMS)

DARREN M. ROWE
Petitioner - Appellant
v.

HAROLD W. CLARKE
Respondent - Appellee

ORDER

The petition for rehearing en banc was circulated to the full court. No judge
requested a poll under Fed. R. App. P. 35. The court denies the petition for
rehearing en banc.
For the Court
/s/ Patricia S. Connor, Clerk

/ffFEA(dix: c

U.S.C.A. Const. Amendment VI. Jury trial for crimes, and procedural rights
In all criminal prosecutions, the accused shall enjoy the right to a speedy and public trial, by an
impartial jury of the State and district wherein the crime shall have been committed, which district shall
have been previously ascertained by law, and to be informed of the nature and cause of the accusation;
to be confronted with the witnesses against him; to have compulsory process for obtaining witnesses in
his favor, and to have the Assistance of Counsel for his defence.

U.S.C.A. Const. Amendment XIV. Citizenship; privileges and immunities; due process; equal
protection; apportionment of representation; disqualification of officers; public debt;
enforcement
Section 1. All persons bom or naturalized in the United States, and subject to the jurisdiction
thereof, are citizens of the United States and of the State wherein they reside. No State shall make or
- enforce any law which shall abridge the privileges or immunities of citizens of the United States; nor
shall any State deprive any person of life, liberty, or property, without due process of law; nor deny to
any person within its jurisdiction the equal protection of the laws.
Section 2. Representatives shall be apportioned among the several States according to their
respective numbers, counting the whole number of persons in each State, excluding Indians not taxed.
But when the right to vote at any election for the choice of electors for President and Vice President of
the United States, Representatives in Congress, the Executive and Judicial officers of a State, or the
members of the Legislature thereof, is denied to any of the male inhabitants of such State, being
twenty-one years of age, and citizens of the United States, or in any way abridged, except for
participation in rebellion, or other crime, the basis of representation therein shall be reduced in the
proportion which the number of such male citizens shall bear to the whole number of male citizens
twenty-one years of age in such State.
Section 3. No person shall be a Senator or Representative in Congress, or elector of President
and Vice President, or hold any office, civil or military, under the United States, or under any State,
who, having previously taken an oath, as a member of Congress, or as an officer of the United States,
or as a member of any State legislature, or as an executive or judicial officer of any State, to support the
Constitution of the United States, shall have engaged in insurrection or rebellion against the same, or
given aid or comfort to the enemies thereof. But Congress may by a vote of two-thirds of each House,
remove such disability.
Section 4. The validity of the public debt of the United States, authorized by law, including
debts incurred for payment of pensions and bounties for services in suppressing insurrection or
rebellion, shall not be questioned. But neither the United States nor any State shall assume or pay any
debt or obligation incurred in aid of insurrection or rebellion against the United States, or any claim for
the loss or emancipation of any slave; but all such debts, obligations and claims shall be held illegal
and void.
Section 5. The Congress shall have power to enforce, by appropriate legislation, the provisions
of this article.

APPENDIX: D

